No. 19-930
In The
Supreme Court of the United States

CIC Services, LLC,
Petitioner,

v.

Internal Revenue Service,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIEF OF AMICUS CURIAE
PROFESSOR KRISTIN E. HICKMAN IN SUPPORT OF PETITIONERS

RULE 33.1(h) CERTIFICATE OF WORD COUNT

As preparer of the document above, I hereby certify that the Brief of Amicus
Curiae Professor Kristin E. Hickman in Support of Petitioners, Docket no. 19-930,
complies with Rule 33.1 in that it contains the proper typeface in the proper size. I
further certify that the document contains 5,266 words total, excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on 2/ 24 , 2020.

<2

Stephen M. West
Bachman Legal Printing

Subscribed and sworn to before me this 24th day of February, 2020.

 

 

2020 - BACHMAN LEGAL PRINTING ~ FAX (612) 337-8053 - PHONE (612) 339-9518 or 1-800-715-3582
